OIG Audit Report GR-30-00-002
Use of Equitable Sharing RevenuesVirginia Beach Police DepartmentVirginia Beach, Virginia
Audit Report GR-30-00-002March 10, 2000Office of the Inspector General

Executive Summary
The Office of the Inspector General, Audit Division, has completed an audit of the Use of Equitable Sharing Revenues received by the City of Virginia Beach (City) Police Department (VBPD), Virginia Beach, Virginia.  The audited equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in connection with joint federal criminal investigations.  The funds are to be used to enhance law enforcement resources.

We performed the audit in accordance with generally accepted government auditing standards and, accordingly, included such tests of the records and procedures, as we considered necessary.  We audited equitable sharing revenue distributed from July 1, 1997 to May  31, 1999.

Equitable sharing revenues were accounted for separately in financial records. We were able to determine that they were deposited and used as prescribed by the Department of Justice.  However, our review disclosed that:


the financial accounting and reporting needs improvement.

We concluded our audit with an exit conference.  Representatives of VBPD, the City's Finance Department, and the City's Internal Audit Division attended and we provided details of our audit methodology and discussed our findings and recommendations.  The representatives present concurred with the findings of our audit and indicated that they will resolve the problems noted.